               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




           Contract Funding Approval

                       Audit Report




                                              August 24, 2011

Report Number CA-AR-11-005
                                                                        August 24, 2011

                                                          Contract Funding Approval

                                                        Report Number CA-AR-11-005




IMPACT ON:
This audit will impact the U.S. Postal       that the Postal Service direct program
Service’s purchasing policies and its        office officials to submit eBuy
compliance with Sarbanes-Oxley (SOX)         requisitions for contract funding
requirements.                                approval for transportation contracts
                                             within the Contracting Authoring
WHY THE OIG DID THE AUDIT:                   Management System before making
Our objective was to evaluate the Postal     contractual commitments. In addition,
Service’s contract funding approval          we recommend that Supply
process and validate whether the             Management, Network Operations
contract funding was properly approved       Logistics and International Operations
before the Postal Service entered in a       establish an agreement to ensure an
contractual agreement. Specifically, we      approved eBuy requisition for surface
determined whether contracting officials     transportation contracts is obtained as
obtained requisitions through the eBuy       required.
system to validate contract funding
approvals.                                   WHAT MANAGEMENT SAID
                                             Management agreed with all findings,
WHAT THE OIG FOUND:                          recommendations and monetary impact.
Postal Service officials generally           They stated although purchase plans
submitted eBuy requisitions to validate      described the funding requirements for
the funding approval process before          these contractual commitments, and
entering contractual agreements during       approval indicated funding was
fiscal years 2008 and 2009. However,         available; they have agreed to ensure
we found that Postal Service officials did   authorized funding for transportation
not submit and approve eBuy                  requirements are, at a minimum,
requisitions for 16 of 143 (11 percent)      generated and approved through a
randomly selected contracting actions        requisition on a fiscal year basis.
totaling over $600 million before making
contractual commitments. Proper              AUDITORS’ COMMENT:
authorization to fund contracts aids in      The OIG considers management’s
complying with SOX requirements and          comments responsive to the
controls over the Postal Service             recommendations and the corrective
purchases to prevent fraud.                  actions should resolve the issues
                                             identified in the report.
WHAT THE OIG RECOMMENDED:
The U.S. Postal Service Office of            Link to review the entire report
Inspector General (OIG) recommended
August 24, 2011

MEMORANDUM FOR:            CYNTHIA F. MALLONEE, MANAGER, LOGISTICS
                           MARY J. MAHNKE, ACTING EXECUTIVE DIRECTOR,
                           INTERNATIONAL OPERATIONS
                           SUSAN M. BROWNELL, VICE PRESIDENT, SUPPLY
                           MANAGEMENT




FROM:                      Mark W. Duda
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Contract Funding Approval
                           (Report Number CA-AR-11-005)

This report presents the results of our audit of Contract Funding Approval (Project
Number 11YG021CA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judith Leonhardt, director,
Supply Management, or me at 703-248-2100.

Attachments

cc: David E. Williams
    Giselle E. Valera
    Joseph Corbett
    Leonard W. Kilburn
    Cheryl D. Martin
    J. Dwight Young
    Karen A. Pompanella
    Royale A. Ledbetter
    Douglas P. Glair
    Trent K. Ensley
    Susan A. Witt
    Corporate Audit and Response Management
                                                TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Contracting Actions Without an eBuy Requisition ........................................................... 1

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 6

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Monetary Impact ......................................................................................... 9

Appendix C: Contracting Actions Without an eBuy Requisition during FYs 2008 and

2009 .............................................................................................................................. 10

Appendix D: Management’s Comments ........................................................................ 11
Contract Funding Approval                                                                        CA-AR-11-005



Introduction

This report presents the results of our audit of Contract Funding Approval (Project
Number 11YG021CA000). This self-initiated audit addresses financial risk. Our
objective was to evaluate the U.S. Postal Service’s contract funding approval process
and validate whether contracts were properly approved before the Postal Service
entered into a contractual agreement. Specifically, we determined whether contracting
officials obtained requisitions through the eBuy system to validate contract funding
approvals. See Appendix A for additional information about this audit.

In fiscal years (FYs) 2008 and 2009, the Postal Service maintained approximately
23,205 active contracting actions valued at $5.9 billion in the Contracting Authoring
Management System (CAMS). The goods and services requisitioned for contracting
actions are to be submitted via eBuy, a Postal Service electronic tool. eBuy is the
preferred Postal Service method for order placement and is intended to streamline
purchasing processes and deliver significant cost savings through web-based, self-
servicing requisitioning. eBuy also provides employees with web access to a fully
integrated electronic requisitioning, approval workflow, invoice certification, and
reconciliation report process. Effective January 11, 2003, all employees who have web
access must use eBuy for all requisitions1.

Conclusion

Postal Service officials generally submitted eBuy requisitions to validate the funding
approval process before entering contractual agreements during FYs 2008 and 2009.
However, officials did not submit eBuy requisitions for 16 of 1432 (11 percent) randomly
selected contracting actions, totaling more than $600 million, before making a
contractual commitment or incurring potential liabilities. Without funding approval
documentation, contracting officers (CO) are at risk, because they have not received the
authorization to spend program office funds. Furthermore, the Postal Service might not
have the funds necessary to pay its obligations, or it might be obligated to pay for a
contractual commitment that was not management’s intent. Proper authorization to fund
contracts also aids in complying with Sarbanes-Oxley (SOX) requirements and controls
over the Postal Service purchases to prevent fraud.

Contracting Actions Without an eBuy Requisition

Postal Service officials did not submit eBuy requisitions before making contractual
commitments for 16 of 143 (11 percent) randomly selected contracting actions during




1
 Mandatory Use of eBuy memorandum, December 23, 2002.
2
 We randomly selected 143 contracting actions from CAMS within six Supply Management portfolios. We identified
16 contracting actions that did not have eBuy requisitions.
                                                            1
Contract Funding Approval                                                                             CA-AR-11-005



FYs 2008 and 2009. Specifically, International Operations (INO)3 officials did not submit
a requisition for one air transportation contract, valued at $390,508,219. Further,
Surface Operations4 officials did not submit requisitions for two surface transportation
contracts, valued at $15,179,902. Commercial Air Operations5 did not submit
requisitions to fully fund $195,700,098 for 13 air transportation contracts. See Table 1
for the number of contracting actions without an eBuy requisition.

     Table 1: FYs 2008 and 2009 Contractual Actions Without an eBuy Requisition
                                               Number of                         Total Unsupported
                                           Contracting Actions                   Contracting Actions
    International Operations                             1                                        $390,508,219

    Surface Operations                                   2                                           15,179,902

    Commercial Air Operations                           13                                         195,700,098

                 Total                                  16                                        $601,388,219

In December 2002, Deputy Postmaster General Patrick Donahoe6 issued a
memorandum stating that, effective January 11, 2003, all employees who have web
access must use eBuy for all requisitions. He reiterated the same in a memorandum
dated December 19, 2007. Further policy denotes that a CO must ensure that sufficient
funding has been approved before making a contractual commitment or incurring
potential liabilities for the Postal Service7. Furthermore, the CO or persons with requisite
authority must verify that the contract is appropriately funded as indicated by an eBuy
approval notification8.

The current INO officials stated they inherited the contracting action without an eBuy
requisition when management transitioned, and they could not provide a reason as to
why a requisition was not submitted. Surface Operations and Commercial Air
Operations officials told us that their focus was on mail operations and moving the mail,
not submitting eBuys.



3
  INO, a component of the Postal Service Global Business, is responsible for providing truly universal service
worldwide. INO arranges transportation with airlines and ocean carriers, monitors suppliers, and works with other
postal organizations worldwide to resolve problems and enhance and improve services.
4
  Surface Operations, a component of the Postal Service Network Operations, is responsible for the administration of
the national surface transportation network by establishing policies related to fleet operations, highway contact
service, and rail transportation.
5
  Commercial Air Operations, a component of the Postal Service Network Operations, is responsible for developing
                                                                                                       ™
the commercial air transportation network that is used by the Postal Service to transport First-Class , Priority, and
              ®
Express Mail products.
6
  Mr. Donahoe is the current postmaster general.
7
  Supply Management Transportation Portfolio Administrative Instruction (SMTP-2005-001, dated April 7, 2005).
8
  USPS .211.CA004 Key Control - Air Transportation



                                                         2
                                              Restricted Information
Contract Funding Approval                                                      CA-AR-11-005



In April 2005, the manager of Supply Management Transportation Portfolio (SMTP)
issued an administrative instruction with concurrence from Network Operations and INO
management. The instructions defined the responsibilities and processes in awarding or
renewing contracts. Network Operations and INO are responsible for providing funding
approval and submitting funding documents in the eBuy system. SMTP should be
consulted for information necessary to form a reasonable funding estimate. COs must
ensure that sufficient funding certification has been received before making a
contractual commitment for the Postal Service.

In August 2009, current Supply Management Air Transportation contracting officials and
Network Operations officials reiterated the SMTP 2005 agreement and revised the
agreement to accommodate annual eBuy submissions to be in alignment with the
budget for air transportation contracts. The current officials agreed that at the beginning
of the fiscal year, Network Operations will assign its budget to the various types/modes
of transportation and will generate and approve an eBuy requisition for each type/mode
of transportation to authorize funding for the fiscal year. Supply Management will assign
contracts to each eBuy requisition and will copy the eBuy for each of the assigned
contract files. In FY 2010, INO contracting officials submitted eBuy requisitions for
subsequent air transportation contract renewals. Commercial Air Operations officials as
well submitted a bulk funding requisition for subsequent air transportation contracting
actions. However, the Transportation Portfolio had not established an agreement with
Network Operations or INO defining how eBuy requisitions will be submitted for surface
transportation contracting actions.

Supply Management Infrastructure and Supply Chain Management Strategies officials
stated that while an approved eBuy is currently required by policy, they believe that it
may be more beneficial to rely on the approved purchase plan signatures for
authorization in the future. One concern about this approach is that the purchase plan
process does not include a member from the budget office to ensure that funds are
available and the purchase plan may not always be signed by the program official with
appropriate authorization authority. Furthermore, the Postal Service might not have the
funds necessary to pay its obligations, or it might be obligated to pay for a contractual
commitment that was not management’s intent. Finally, proper authorization to fund
contracts aids in complying with SOX requirements and controls over the Postal Service
purchases to prevent fraud.

Because officials did not obtain eBuy requisitions to validate contract funding, we
classified the value of these 16 contracting actions, $601,388,219, as unsupported
questioned costs. We questioned these contract values, because they are not
supported by adequate documentation for contract funding and employees did not
follow required procedures. The use of the category ‘unsupported questioned costs’
does not necessarily indicate actual loss incurred by the Postal Service.




                                               3
                                    Restricted Information
Contract Funding Approval                                                   CA-AR-11-005




Recommendations

We recommend the manager, Logistics, and acting executive director, International
Operations:

1. Direct program office officials to submit eBuy requisitions for contract funding
   approval for transportation contacts within Contract Authoring Management System
   prior to contractual commitments.

We recommend the vice president, Supply Management:

2. Establish an agreement with Network Operations and International Operations to
   ensure approved eBuy requisitions for surface transportation contracts is obtained
   as required.




                                             4
                                  Restricted Information
Contract Funding Approval                                                  CA-AR-11-005




Management’s Comments

Management agreed with all findings, recommendations, and monetary impact
associated with the 16 transportation contracts where funding was not provided before
award. Management also stated although purchase plans described the funding
requirements for these contractual commitments, and approval indicated funding was
available; they have agreed to ensure authorized funding for transportation
requirements are, at a minimum, generated and approved through a requisition on a
fiscal year basis. See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

Management agreed to ensure that authorized funding for transportation requirements
are at least generated and approved through a requisition on a fiscal year basis. But,
management still considers the purchase plan adequate to authorize funding, because it
describes the funding requirements and indicates approval that funding is available.
However, as stated in the report, we do not agree that the purchase plan is adequate,
because the purchase plan does not include a member from the budget office to ensure
that funds are available. Further, the purchase plan may not always be signed by the
program official with appropriate authorization authority.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation(s) can be closed.




                                             5
                                  Restricted Information
Contract Funding Approval                                                                               CA-AR-11-005



                                  Appendix A: Additional Information

Background

For FYs 2008 and 2009, the Postal Service maintained approximately 23,205 active
contracting actions, valued at $5.9 billion, in CAMS. The goods and services
requisitioned for these contracting actions were to be submitted via eBuy, a Postal
Service electronic tool. eBuy is the preferred Postal Service method for order
placement. eBuy is intended to streamline purchasing processes and deliver significant
cost savings through web-based, self-servicing requisitioning. eBuy provides employees
with web access to a fully integrated electronic requisitioning, approval workflow, invoice
certification, and reconciliation report process. Effective January 11, 2003, all
employees who have web access must use eBuy for all requisitions.

On April 7, 2005, the SMTP established a set of guidelines to add structure to the
business relationship between SMTP, INO, and Network Operations management
(NOM). According to the guidelines, before awarding a contract, contracting officials
work with INO and NOM through a purchasing team9 to discuss the proposed purchase.
It is the responsibility of SMTP personnel to ensure timely, responsive, and effective
support in awarding or renewing contracts for services. INO and NOM are responsible
for providing funding approval in which SMTP should be consulted to form a reasonable
funding estimate.

INO and NOM initiate the eBuy210 requisition11 process. A funding document, also
known as a requisition, is submitted via the eBuy2 system using the ‘off-catalog12’
procedure. The eBuy2 approval chain is predetermined in the system, and the
approvers consist of program, contracting, and budget officials.

After approval of the requisition, the eBuy2 system routes the requisition to Supply
Management for the execution of the contract. A CO must ensure that sufficient funding
certification has been received before making a contractual commitment or incurring
potential liabilities for the Postal Service, (such as a purchase, modification, or renewal)
requiring additional funds.

Objective, Scope, and Methodology

Our objective was to evaluate the Postal Service’s contract funding approval process
and validate whether contract funding was properly approved before the Postal Service
entered a contractual agreement. Specifically, we determined whether contracting


9
  Purchase team consists of individuals from SMTP and NOM that work together to develop an individual purchasing
plan that discusses the main factors affecting the purchase such as market conditions, availability of competition, and
anticipated cost based on the statement of work.
10
   eBuy2 is the preferred Postal Service method for order placement. All Postal Service personnel with Internet
access must use eBuy2 for all requisitions.
11
   A requisition is an internal request for equipment and supply items across commodities.
12
   Off-catalog refers to creating a requisition for products or services not offered on-catalog.

                                                          6
                                               Restricted Information
Contract Funding Approval                                                     CA-AR-11-005



officials obtained requisitions through the eBuy system to validate contract funding
approvals.

To accomplish our objective, we randomly selected a sample of 143 contracting actions,
valued at approximately $2.1 billion, from approximately 23,205 active contracting
actions maintained in CAMS. We reviewed the Supplying Principles and Practices,
SMTP Administrative Instructions, and eBuy guidelines. In addition, we interviewed
Supply Management officials, COs, Postal Service program offices to determine the
eBuy requisition process.

We conducted this performance audit from March through August 2011 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on July 6, 2011, and included their
comments where appropriate.

We assessed the reliability of CAMS data by validating the sample data obtained from
CAMS to supporting documentation in the contract files. We determined that the data
was sufficiently reliable for the purposes of this report.




                                              7
                                   Restricted Information
  Contract Funding Approval                                                        CA-AR-11-005



  Prior Audit Coverage

                                          Final Report           Monetary
   Report Title        Report Number          Date                Impact        Report Results
Fiscal Year 2010        FT-AR-11-009       3/31/2011            $39,797,030   CO approved one
Postal Service                                                                air transportation
Financial                                                                     contract within the
Statements Audit                                                              Logistics Contract
- St. Louis                                                                   Management
Information                                                                   System without
Technology and                                                                verifying the eBuy
Accounting                                                                    requisition had
Service Center                                                                been properly
                                                                              approved and
                                                                              funded as required.
                                                                              Because of
                                                                              management’s
                                                                              continuing efforts
                                                                              and improvements,
                                                                              we did not make
                                                                              recommendations.
                                                                              As a result,
                                                                              management
                                                                              chose not to
                                                                              respond formally to
                                                                              this report.




                                                  8
                                       Restricted Information
  Contract Funding Approval                                                                             CA-AR-11-005




                                       Appendix B: Monetary Impact

              Finding                                    Impact Category                                Amount
Contracting Actions Without an
                                               Unsupported Questioned Costs13                       $601,388,219
eBuy Requisition

  Postal Service officials did not submit eBuy requisitions for 16 of 143 contracting actions
  before making a contractual commitment or incurring potential liabilities. Proper
  authorization to fund contracts aids in complying with SOX requirements and controls
  over the Postal Service purchases to prevent fraud. Because officials did not obtain
  eBuy requisitions to validate contract funding, we classify the value of these
  16 contracting actions, $601,388,219 as unsupported questioned costs. Appendix C
  illustrates the 16 contracting actions without an eBuy requisition.




  13
    We questioned these costs, because Postal Service officials did not ensure an eBuy requisition was received
  before making a contractual commitment or incurring potential liabilities. These amounts are not necessarily losses
  incurred by the Postal Service.



                                                           9
                                                Restricted Information
Contract Funding Approval                                                             CA-AR-11-005



Appendix C: Contracting Actions Without an eBuy Requisition during FYs 2008
and 2009

                                                                                    Unsupported
   Category                                                        FY 2008 eBuy      Questioned
                                                 Committed
  Management            Contract Number                            (Requisition)    Costs (partial
                                               (Action) Amount
    Center                                                           Amount           and/or no
                                                                                     requisition)
Bulk eBuy Submitted for FY 2008                                    ($103,000,000)

Air Transportation   SNET-08-IAS                    $ 25,102,687

Air Transportation   SNET-08-MFE                      32,172,602

Air Transportation   SNET-08-MAS                      13,912,152

Air Transportation   SNET-08-MAS                      15,073,743

Air Transportation   SNET-08-WFS                      36,613,111

Air Transportation   SNET-08-CFI                      13,805,228

Air Transportation   SNET-08-EZT                      41,143,128

Air Transportation   SNET-08-CFI                      14,974,265

Air Transportation   SNET-08-GLS                       1,272,466

Air Transportation   SNET-08-QAS                       8,336,674

Air Transportation   SNET-08-MFE                      43,795,920

Air Transportation   SNET-08-UPS                       2,169,646

AIR TRANSPORTATION SUBTOTAL                        $ 248,371,622   ($103,000,000)    $145,371,622
Global Air
                     5AAIMT-06-B-0007                390,508,219                -
Acquisition                                                                            390,508,219
Commercial Air       AMOT-2003-08-CO-
                                                      50,328,476                -
Transportation       MICRONESI                                                          50,328,476
Surface
                     5BSMTR-09-B-0016                  1,457,870                -
Transportation                                                                           1,457,870
Surface
                     5BSMTR-09-B-0012                 13,722,032                -
Transportation                                                                          13,722,032
SUBTOTAL                                           $456,016,597            $0.00     $456,016,597

TOTAL UNSUPPORTED QUESTIONED COST                                                    $601,388,219




                                                  10
                                        Restricted Information
Contract Funding Approval                                       CA-AR-11-005



                            Appendix D: Management’s Comments




                                               11
                                     Restricted Information
Contract Funding Approval                            CA-AR-11-005




                                      12
                            Restricted Information
